                                                          NATIONAL SCIENCE FOUNDATION
                                                           OFFICE OF INSPECTOR GENERAL
                                                             OFFICE OF INVESTIGATIONS

                                                    CLOSEOUT MEMORANDUM

 Case Number: I05090051                                                                                      Page 1 of 1


                 The Office of Audits of the National Science Foundation Office of Inspector General notified
          the Office of Investigations of an ongoing internal investigation at an institution.' The available
          information indicated that the institution had initiated the investigation to examine substantial
          questioned expenses on numerous NSF awards2involving a single principal i n ~ e s t i ~ a t o r . ~

                   OIG investigation revealed that the institution had completed its internal investigation, which
          identified numerous expenses4 improperly charged to NSF awards, including a small amount of
          falsified expenses. Following consultation with NSF about its findings, the institution made
          appropriate adjustments in a quarterly cash transaction report to return those funds to NSF. The
          institution determined that the principal investigator's conduct merited substantial institutional
          discipline in addition to repayment to the institution of duplicate or otherwise unjustified
          reimbursements previously made to the investigator. The institution also took various remedial steps
          including revision of policies and forms governing conflicts of interest, nepotism, travel expenses
          and subawards, employment of additional compliance personnel to enhance education and
          consultative resources, and implementation of additional internal audit mechanisms.

                In the course of responding to inquiries generated by the OIG investigation, the institution
          uncovered additional improperly-charged expenses5that were duly refunded to NSF.

                  OIG concluded that the institution's investigation adequately developed the essential details
          of various financial irregularities and criminal misconduct, and provided an adequate basis for
          identification and calculation of the questioned amounts that were returned to NSF. OIG further
          concluded that the measures taken by the institution to deal with its investigative findings, both as \o
          discipline and remedial measures, were reasonable and appropriate. The disciplinary measures w a e
          forceful enough to deter the investigator, and others who knew of the outcome, from &rnmitting
          similar mistakes in the future. The remedial measures strengthened the management controls fAr
          travel expenses and dealings with family members, and enhanced the compliance. and audit
          fimctions. The steps taken provide reasonable assurance that the individual and systemic proble&s
                                                                                                                11
          identified during the investigation have been resolved and will not recur.
                                                                                                                              I



                    Accordingly, this case is closed.                                                                         I




          '                       The Office of Audits learned of the investigation through review of a then-currejt annual
          2
                                                                                                                              ,i
                                                                                                                              I
          3
          4
              Approximately $142,000.
              Approximately $6,000.


1
NSF OIG Form 2 (1 1/02)
                                                                                                                              1
